No.

In the Supreme Court of the United States

XAVIER LISTER,
PETITIONER,

Vv.

UNITED STATES OF AMERICA,
RESPONDENT,

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioner asks leave to file
the accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit without prepayment of costs and to proceed in forma
pauperis. Petitioner was represented by counsel appointed under the Criminal
Justice Act, 18 U.S.C. ยง 3006A (b) and (c), both in the United States District Court
for the Northern District of Texas and in the United States Court of Appeals for the
Fifth Circuit.

Respectfully submitted on February 15, 2020.

 

Burleson, Pate & Gibson, LLP
900 Jackson Street, Suite 330
Dallas, Texas 75202

(214) 871-4900
cknight@bp-g.com
